                                                NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL

 .                                                 OFFICE OF INVESTIGATIONS

                                          CLOSEOUT MEMORANDUM

Case Number: A03 68
                                                                              11          Page 1 of 1



        As part of a review of NSF conference, workshop, and symposia grants, we collected a stratified
        random sampling of relevant FYOl NSF awards and wrote to each institution requesting
        documentation of expenditures for the award. In this case, the University's documentation for
        the expenditures under the NSF award,' which is still open, included information related to
        several different awards and contained several handwritten notations and changes. In addition to
        the original award, the program officer had approved a supplement for printing workshop results
        for distribution to interested members of the scientific community.2

        Our review of the information showed that theprimary purpose of the award was to develop a
        new science initiati~e.~ To achieve this, the award funded numerous workshops with specific
        attendees invited to attend.

        We noted that a subcontract, not part of the original award, was paid out of participant support
                 We learned that the NSF program officer had approved, in advance, the shifting of h d s
        fi-om participant support to the subcontract.

        Numerous scientists were invited to attend these development workshops supported by the
        award. The development of the initiative via these workshops involved no registration fees or
        any other evidence of possible program income.

        We concluded that there was nothing that appeared unusual with the expenditures under the
        active award. This case is closed and'no further action will be taken.




SF OIG Form 2 (1 1/02)
